No, 20-112
SHERRY HERNANDEZ,
Petitioner

‘

PNMAC MORTGAGE OPPORTUNITY

 

FUND TORS. LLC. etal,
Respondents
Certificate of Service

Thereby certify that on December 4, 2020, three (3) copies of the Petition for Rehearing of
Denial of a Petition for Writ of Certiorari in the above-captioned case were served as requered
by US, Supreme Coun Rule 29 5(c), and electronically, on the following:

Chery] Chang. Esq chang gtbhapkrome com

Blank Rome, LLP

2029 Century Park East 6* Floor
Los Angeles, CA 90067

SUBSCRIBED AND SWORN TO before me. the undersigned authority, on this 4th day of
December, 2020.

 
